—_
I

swum  COCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ql efs contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.

GANNETT CO., INC., GANNETT SATELLITE
INFORMATION NETWORK INC.,
MULTIMEDIA HOLDINGS CORPORATION
d/b/a KARE 11-TV and d/b/a ST. CLOUD TIMES,

Petitioners,
v.
RYAN LARSON,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8962 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Chk
RENEE J. GOSS 9 ( Duda ‘.
My Comm. Exp. September 5, 2023 .

Notary Public Affiant 39893
